WR-FS-99-01




        AUDIT
       REPORT




                                  REPORT ON MATTERS
                                    IDENTIFIED AT THE
                                 IDAHO OPERATIONS OFFICE
                                  DURING THE AUDIT OF THE
                                DEPARTMENT'S CONSOLIDATED
                                  FISCAL YEAR 1998 FINANCIAL
                                       STATEMENTS




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL                           MARCH 1999
    OFFICE OF AUDIT SERVICES
                               U.S. DEPARTMENT OF ENERGY
                              OFFICE OF INSPECTOR GENERAL




                    REPORT ON MATTERS IDENTIFIED AT THE
                          IDAHO OPERATIONS OFFICE
            DURING THE AUDIT OF THE DEPARTMENT'S CONSOLIDATED
                   FISCAL YEAR 1998 FINANCIAL STATEMENTS




The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
Internet at the following address:

            U.S. Department of Energy Management and Administration Home Page
                                  http://www.hr.doe.gov/ig

Your comments would be appreciated and can be provided on the Customer Response Form
attached to the report. This report can be obtained from the:


                                   U.S. Department of Energy
                          Office of Scientific and Technical Information
                                           P.O. Box 62
                                  Oak Ridge, Tennessee 37831




Report Number: WR-FS-99-01                                      Western Regional Audit Office
Date of Issue: March 16, 1999                                   Albuquerque, New Mexico 87185
                   REPORT ON MATTERS IDENTIFIED AT THE
                         IDAHO OPERATIONS OFFICE
            DURING THE AUDIT OF THE DEPARTMENT'S CONSOLIDATED
                  FISCAL YEAR 1998 FINANCIAL STATEMENTS



                                TABLE OF CONTENTS



                                                                                    Page

               SUMMARY… … … … … … … … … … … … … … … … … … … ..… … … …                1

PART I -       APPROACH AND OVERVIEW… … … … … … .… … … … … … … … …                   2

               Introduction… … … … … … … … … … … … … … … .… … … … … … … … .          2

               Scope and Methodology… … … … … … … … .… … … … … … … … … … ..          2

               Observations… … … … … … … … … … … … .… … … … … … … … .… ...…          3

PART II -      AUDIT                                                                 4
               RESULTS… … … … … … … … ..… … ...… … … … … … … … … ...
               1. Procurement and Accounts Payable Internal Control Deficiencies…    4

               2. Incomplete Deferred Maintenance Extrapolation Model..… … .… … .    6

               3. Yearend Accruals… … … … … … .… .… … .… … … .… … … … .… ..… .       7
                             U.S. DEPARTMENT OF ENERGY
                            OFFICE OF INSPECTOR GENERAL
                              OFFICE OF AUDIT SERVICES
                           WESTERN REGIONAL AUDIT OFFICE

                   REPORT ON MATTERS IDENTIFIED AT THE
                         IDAHO OPERATIONS OFFICE
            DURING THE AUDIT OF THE DEPARTMENT'S CONSOLIDATED
                  FISCAL YEAR 1998 FINANCIAL STATEMENTS


Audit Report Number: WR-FS-99-01

                                           SUMMARY

        The Government Management Reform Act of 1994 requires that the Department of
Energy (DOE) annually submit audited financial statements to the Office of Management and
Budget (OMB). A Departmentwide audit was conducted to determine whether there was
reasonable assurance that DOE's consolidated Fiscal Year (FY) 1998 financial statements were
free of material misstatements. We conducted a portion of the Departmentwide audit at the Idaho
Operations Office (Idaho) and its management and operating contractor, Lockheed Martin Idaho
Technologies Company (Lockheed).

       The audit at Idaho and Lockheed disclosed internal control deficiencies in procurement
and accounts payable activities and omissions in the deferred maintenance extrapolation model
and yearend accruals. Specifically, Lockheed's procurement agents and accounts payable clerks
could override certain internal controls. In addition, Lockheed's deferred maintenance
extrapolation model did not include building use in determining the amount of deferred
maintenance. Finally, no accruals were made to account for non-payroll transactions that
occurred after the Integrated Materials Management System (IMMS) cutoff date of September
25, 1998.

        We recommended that Idaho ensure that Lockheed implement and modify its policies,
follow guidance regarding building use in the deferred maintenance extrapolation model, and
adjust the financial statements as necessary for yearend accruals. Idaho agreed with the findings
and recommendations and took corrective actions.




                                                     ______(Signed)_________
                                                      Office of Inspector General
                                               PART I

                                  APPROACH AND OVERVIEW


INTRODUCTION

       The Government Management Reform Act of 1994 requires that audited financial
statements covering all accounts and associated activities of DOE be submitted annually to OMB.
A Departmentwide audit of the consolidated FY 1998 financial statements was conducted by
examining internal controls, assessing compliance with laws and regulations, evaluating
accounting transaction cycles, and testing selected account balances at various DOE facilities.

        The objective of the Departmentwide audit was to determine whether the DOE's
consolidated financial statements presented fairly, in all material respects, the financial position of
the DOE as of September 30, 1998 and 1997, and its consolidated net cost, changes in net
position, budgetary resources, financing activities, and custodial activities for the fiscal years then
ended in conformity with Federal accounting standards. Departmentwide issues are addressed in
Audit Report No. IG-FS-99-01, issued on February 25, 1999.

        The purpose of this report is to inform Idaho management of matters that came to the
attention of the Office of Inspector General (OIG) during the audit of Idaho and Lockheed. Idaho
is responsible for the account balances entered into DOE's core accounting system.

SCOPE AND METHODOLOGY

       The audit was conducted from May 1998 through January 1999 at Idaho and Lockheed in
Idaho Falls, Idaho. Specifically, we examined internal controls, assessed compliance with laws
and regulations, and selectively tested account balances reported to DOE Headquarters as
necessary to achieve the Departmentwide audit objective.

        The audit was performed in accordance with generally accepted Government auditing
standards for financial audits. Since we relied on computer-generated data, we evaluated the
general control environment of certain financial systems and evaluated the reliability of the data on
a test basis.

        Because the audit was limited, it would not necessarily disclose all of the internal control
weaknesses that may have existed. Furthermore, because of inherent limitations in any system of
internal controls, errors or irregularities may nevertheless occur and not be detected. The issues
addressed in this report represent our observations of activities through the end of fieldwork on
January 5, 1999. Projection of any evaluation of the internal controls to future periods is subject
to the risk that procedures may become inadequate because of changes in conditions or the
effectiveness of the design and operation of policies and procedures may deteriorate.

        In addition to the audit work conducted by the OIG, an independent public accounting
firm reviewed Disbursements, Financing and Revenue, and Fixed Assets at Idaho. The OIG

                                                   2
considered all findings, generated as a result of the review, when preparing the audit report on
DOE's Consolidated FY 1998 Financial Statements and the management report referred to in that
report. The OIG is addressing issues requiring local management attention in this report.

       An exit conference was held with Idaho and Lockheed management on March 2, 1999.

OBSERVATIONS

        We observed various internal control deficiencies in Lockheed's procurement and accounts
payable activities. Contrary to Lockheed's policies, procurement agents could issue purchase
orders in situations where new requisitions were required or agents' spending limits were
exceeded. In addition, accounts payable clerks could override the requirement that a three-way
match occur among purchase orders, receiving reports, and invoices before making payments.
Furthermore, procurement agents did not receive written verification that items were received
before authorizing accounts payable clerks to make payment. We recommended that Idaho
ensure that Lockheed implement and modify policies to correct these deficiencies. Management
concurred with the finding and recommendations and took corrective actions.

       In addition, we determined that Lockheed did not follow DOE guidance for estimating
deferred maintenance for buildings at the Idaho National Environmental and Engineering
Laboratory (INEEL). Specifically, Lockheed did not include building use in its extrapolation
model. We recommended that Idaho direct Lockheed to include building use in the model or
perform an analysis to determine if the effect of exclusion would be immaterial. Management
concurred with the finding and recommendations and performed an analysis.

         Finally, we found that Lockheed did not make yearend accruals to account for FY 1998
non-payroll costs incurred after its September 25 IMMS cutoff date. Accordingly, non-payroll
activities occurring after that date were recorded in FY 1999. We recommended that Lockheed
determine the amount of the omitted accruals and, if material, correct the FY 1998 financial
statements. We also recommended that Idaho direct Lockheed to establish procedures to ensure
that future accruals were made through the fiscal yearend. Management concurred with the
finding and recommendations and took appropriate actions.

      Part II of this report provides additional details concerning the audit results and
management's comments.




                                                 3
                                             PART II

                                         AUDIT RESULTS

1.     Procurement and Accounts Payable Internal Control Deficiencies

         There were deficiencies in Lockheed's internal controls that adversely affected Lockheed's
ability to safeguard assets against loss from unauthorized acquisition, use, or disposition.
Specifically:

       1. Contrary to the policies in Lockheed's Process Descriptions and Approved Thresholds
          Manual (Manual), the computer system had deficiencies that did not prohibit
          procurement agents from issuing purchase orders that exceeded their purchasing
          limits. In addition, the computer system allowed the agents to issue purchase orders
          when the agents should have obtained new requisitions from the requesters. The
          Manual required procurement agents to obtain a new requisition if the purchase order
          exceeded the requisitioned amount by 10 percent or $1,000. These weaknesses
          increased the potential for unauthorized acquisitions.

       2. The Manual required accounts payable clerks to make payments for goods received
          only after assuring a three-way match among the invoice, purchase order, and
          receiving report. However, the computer system permitted the clerks to override this
          requirement. As a result, unauthorized use of DOE funds could occur.

           Idaho had previously recommended that Lockheed correct this deficiency when it was
           identified during a 1997 Business Management Process Review. However, Lockheed
           had not corrected the deficiency.

       3. Procurement agents gave approval to accounts payable clerks to pay for items not
          requiring receiving reports, such as services. However, procurement agents did not
          obtain written verification from the requester that these items had actually been
          received. This occurred because the Manual should have, but did not, specifically
          require written verification. As a result, there was increased risk that DOE funds
          could be used to pay for items not received.

Recommendations

      We recommend that the Chief Financial and Administrative Officer, Idaho, direct
Lockheed to:

       1. Assure that the policies in its Manual are implemented;

       2. Complete corrective action identified in the 1997 Business Management Process
          Review; and,




                                                 4
       3. Modify the Manual to require that procurement agents obtain written verification that
          items have been received before giving approval for payment.

Management Comments

        Management concurred with the finding and recommendations, implemented corrective
actions, and cited mitigating controls.

Auditor Comments

      Management's comments and corrective actions were responsive to the finding and
recommendations.




                                               5
2.     Incomplete Deferred Maintenance Extrapolation Model

        To comply with the deferred maintenance reporting requirement in Statement of Federal
Financial Accounting Standards No. 6, Accounting for Property, Plant, and Equipment, DOE's
Office of Project and Fixed Assets Management issued guidance which allowed the use of an
extrapolation model. For those buildings that did not have current condition assessment surveys,
the sites could extrapolate deferred maintenance from surveys of buildings with similar
construction type, age, and use. The model could exclude building use if an analysis showed the
effects of this exclusion were immaterial. However, Lockheed excluded building use from its
extrapolation model without performing the analysis. Lockheed did not perform such an analysis
because it thought building use did not directly impact the deterioration rate.

        As a result, the deferred maintenance extrapolation model for 209 of INEEL's 547
buildings was incomplete. Without consideration of building use or an analysis showing that the
effects of exclusion were immaterial, DOE had reduced assurance that the deferred maintenance
amount reported for INEEL was accurate.

Recommendations

      We recommend that the Chief Financial and Administrative Officer, Idaho, direct
Lockheed to:

       1. Include building use in its extrapolation model and recalculate deferred maintenance;
          or,

       2. Perform an analysis to determine if building use materially affects the deferred
          maintenance reported. In the event of a material difference, recalculate deferred
          maintenance.

Management Comments

      Management concurred with the finding and recommendations. Lockheed's analysis
showed that building use did not materially affect the extrapolation model.

Auditor Comments

      Management's comments and corrective actions were responsive to the finding and
recommendations.




                                                6
3.     Yearend Accruals

        DOE's Accounting Handbook requires contractors to maintain accounts on an accrual
basis. According to the Handbook, costs must be identified with and recorded in the period
incurred, even if the payment was issued in a subsequent accounting period. However, Lockheed
did not accrue non-payroll costs incurred between September 25, 1998, which was the yearend
cutoff for its IMMS, and September 30, 1998, which was DOE's fiscal yearend. Accordingly,
non-payroll disbursement transactions that occurred after that date were recorded in FY 1999.

        These accruals were not made because Lockheed established its accounting year as a 52-
week period and instructed Lockheed managers to consider September 25 as the last business day
to accrue goods and services for FY 1998. Since Idaho had accepted Lockheed's practice in the
past, no procedures were in place to prepare accruals for transactions that occurred between
September 25 and September 30. Lockheed management believed that the practice was justified
since all its fiscal years contained 52 weeks' worth of transactions. Furthermore, Lockheed did
not prepare accruals because it considered the dollar amounts immaterial.

       As a result, Lockheed and Idaho's financial statements did not contain all period costs and
yearend liabilities.

Recommendations

      We recommend that the Chief Financial and Administrative Officer, Idaho, direct
Lockheed to:

       1. Calculate the accruals associated with September 26-30, 1998, transactions and, if
          material, correct the FY 1998 yearend balances; and,

       2. Establish procedures to accrue future IMMS transactions in the proper Government
          fiscal year.

Management Comments

        Management concurred with the finding and recommendations and implemented
corrective action. Idaho cited the Handbook's provision that a balance should be maintained
between the effort required to measure accrued costs precisely and the added value of such
precision. Lockheed calculated the non-payroll accruals and found they were immaterial.
Accordingly, Idaho concluded that the yearend balances did not need correction. In addition,
Lockheed established a new procedure that will be implemented in future years. This procedure
requires that transactions made between the IMMS cutoff date and September 30 be reviewed
and accrued if they are over a $25,000 materiality threshold.




                                                7
Auditor Comments

        Management's comments are responsive to the finding and recommendations. However,
Lockheed and Idaho need to obtain input from the DOE Headquarters Chief Financial Officer
before implementing the planned $25,000 accrual materiality threshold.




                                             8
                                                                IG Report No.: _WR-FS-99-01_


                          CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and therefore ask that you consider sharing your thoughts with us. On the back of this form, you
may suggest improvements to enhance the effectiveness of future reports. Please include answers
to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures
   of the audit would have been helpful to the reader in understanding this report?
2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?
3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?
4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.


Name                                         Date

Telephone                                    Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                              Office of Inspector General (IG-1)
                              Department of Energy
                              Washington, D.C. 20585

                              ATTN.: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.




                                                9
